                                  NATIONAL SCIENCE FOUNDATIOIN
                                     WASHINGTON, D.C. 20550




           Office of
       Inspector General



       MEMORANDUM
             DATE:        August 25,

- --    - .-
           - -- -                                   ----    --   -    ^     _-
                                                                          --.              _ _ _ _ _ ___
               VIA:

        SUBJECT:          Allegation of   isu use    of Funds

                    TO:   Case No. I93020010

       On February 9, 1993, we were con


       v.
       Director in the NSF Division of
       forwarded to us an elec
       faculty member at the
               A c k D r
             had misa ropriated a monthis salary from Dr.
       funds             allegedly had also removed NSF-funded equipment
       from Dr.            ffice.
        We found that the circumstances surrounding the disputed month's
        salary ($6,689), deducted from award no.           4,were related
        to time off taken by Dr.        o observe religi us holidays. Dr.
               maintained that,          approval of Dr.*
                                                        h
                                                        e         took two
       m n e - h a l f weeks off during October, 1992, to observe the

                                                                     had agreed to a one
       month                                                                  (i.e. NSF
       grant) to cover his replacement's salary.
       At our request,              officials investigated these matters.
       According to th               of the university,
       no evidence was found to corroborate either Dr.
                 contentions regarding the deducted month1s salary.
       However, as there was no record of Dr. -agreeing          to such a
       deduction, the university credited the fu month's salary, $6,689,
                         NSF grant account. Mr.            stated that no
                           is contemplated, but systemlc reforms regarding
       sponsored research accounts, such as written consent for
       deductions, will be implemented.
                                                  P
Regarding the equipment which Dr.            alleged was removed
without his consent,            told us t a no equi ment was found
to be missing. An electro       il message from Dr.
dated July 12, 1993, indicated that the matter was reso v dto
                                                            toOIG,
                                                               his
satisfaction.
This case is closed.
